HHS/OIG, Audit -"Review of the State of Massachusetts' Efforts to Account for and Monitor Sub-Recipients' Use
of Public Health Preparedness and Response to Bioterrorism Program Funds,"(A-01-03-01504)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the State of Massachusetts' Efforts to Account for and Monitor Sub-Recipients' Use of Public Health Preparedness
and Response to Bioterrorism Program Funds," (A-01-03-01504)
October 6, 2003
Complete Text of Report is available in PDF format (314 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the State:  (1) properly recorded, summarized and reported
bioterrorism preparedness transactions by specific focus area designated in the cooperative agreements; and (2) established
controls and procedures to monitor subrecipients expenditures of Centers for Disease Control and Prevention (CDC) funds.  We
found that the State generally accounted for the Program funds in accordance with the terms and conditions of the cooperative
agreement and applicable departmental regulations and guidelines.  We recommended that the State implement the random
audit component and address problem areas as they are identified to ensure adequate oversight of subrecipients.  The
auditee concurred.